           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      CONTROLS OVER PAYMENTS
  MADE TO CLAIMANT REPRESENTATIVES
        AT THE HEARINGS LEVEL

     December 2012   A-05-12-11239




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 4, 2012                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Payments Made to Claimant Representatives at the Hearings Level
           (A-05-12-11239)


           OBJECTIVE
           Our objectives were to (1) review controls surrounding payments made to claimant
           representatives at the hearings level and (2) determine whether the Social Security
           Administration (SSA) properly approved, paid, and reported the related payments. We
           also examined sample case characteristics at the hearings level.

           BACKGROUND
           Individuals claiming Social Security benefits or Supplemental Security Income (SSI)
           payments may appoint a qualified individual as a representative to act on his/her behalf
           in matters before the Agency, including the Office of Disability Adjudication and Review
           (ODAR). 1 An appointed representative may seek SSA’s authorization for the fee he/she
           wants to charge and collect by following one of two mutually exclusive processes: (1) a
           fee agreement filed before the favorable decision is rendered or (2) a fee petition,
           generally filed when services have ended. 2 Claimants must sign the fee agreement but
           are not required to sign the fee petition.

           In general, SSA must authorize any fees payable for services performed by an
           appointed representative. The fee specified in the agreement cannot exceed the lesser



           1
             Social Security Act (Act) §§ 206 and 1631(d)(2), 42 U.S.C. §§ 406 and 1383(d)(2). Claimants must
           sign and file a Form SSA-1696-U4, Appointment of Representative, or equivalent written statement
           constituting proof of appointment. Please see Appendix B for an exhibit of the Form.
           2
             SSA, POMS, GN 03920.001 – SSA’s Fee Authorization Processes (effective date August 31, 2009).
           Unlike fee agreements, which are contracts between the claimant and representative, a representative
           may use Form SSA-1560-U4, Petition to Obtain Approval of a Fee for Representing a Claimant Before
           the Social Security Administration, or equivalent written document to request SSA’s approval. Please see
           Appendix C for further detail on the fee authorization and payment processes.
Page 2 - The Commissioner


of 25 percent of the total amount of past-due benefits or $6,000. 3 There is no maximum
fee under the fee petition process. An appointed representative may also request that
the Agency pay the authorized fee directly out of a claimant’s past-due benefits if the
appointed representative is an attorney or a non-attorney who has met certain
prerequisites. SSA will withhold the lesser of 25 percent or $6,000 of the claimant’s
past-due benefits if a fee payment is approved. Figure 1 highlights major aspects of the
fee authorization and payment processes.

                Figure 1: Fee Approval and Payment Processes at ODAR
                      • Claimant and claimant representative complete necessary forms and
                        documents, such as the appointment form and fee agreement, if any, and
                        submit them to SSA. A claimant may appoint a representative and the
                        parties may sign a fee agreement at any level of the disability process.
      Receipt of        However, SSA must receive the forms before a determination, decision,
     Appointment/       or final action.
    Fee Agreement
        Forms

                      • SSA staff reviews and uploads the submitted information into various
                        SSA systems, such as the electronic disability folder and the Case
                        Processing and Management System (CPMS).

                      • If ODAR decides to allow the claim and a fee agreement is associated
    Approval of Fee     with the file, the decision maker must also approve or disapprove the fee
     Agreement or       agreement and notify the claimant. If a fee petition is associated with the
     Petition Form      file, the decision maker determines or recommends a reasonable fee
                        based on the regulatory criteria.

                      • For direct payments to representatives, SSA staff processes the fee
                        payment, minus the Agency's user fee assessment to recover
                        administrative costs.

                      • SSA also issues award notices to the claimant and claimant
     Payment of         representative.
    Authorized Fee
                      • SSA issues a Form IRS 1099-MISC to representatives who received
                        aggregate direct fee payments of $600 or more in a calendar year.




For this review, we selected a random sample of 150 closed hearing cases
(50 allowances, 50 denials, and 50 dismissals) for Fiscal Year (FY) 2011 and reviewed
the controls and documentation associated with each case. Please see Appendix D for
further detail on our scope and methodology.




3
 Social Security Act §§ 206(a)(2)(A) and 1631(d)(2)(B), 42 U.S.C. §§ 406(a)(2)(A) and 1383(d)(2)(B).
For fee agreements approved on or after June 22, 2009, the maximum fee amount is $6,000.
Page 3 - The Commissioner


RESULTS OF REVIEW
In our review of a random sample of 150 closed hearing cases from FY 2011, we found
that while SSA staff was generally following controls pertaining to the authorization and
payment of fees to claimant representatives, we identified one issue pertaining to fee
approval as well as instances of excessive user fee assessments and claimant
representative payments not reported to the Internal Revenue Service (IRS). For
instance, we found that all but one of the allowed cases involving a claimant
representative contained the necessary appointment and fee approval documents when
ODAR decided the case. In the one exception, the claimant representative’s
appointment and fee agreement documents were uploaded to SSA’s systems after the
ODAR decisionmaker allowed the claim, and we could find no evidence the
decisionmaker approved the fee agreement before SSA paid the claimant
representative a fee. In addition, SSA charged an excessive assessment fee in 2 of the
41 cases directly paid by the Agency. Moreover, we found SSA did not report direct
payments related to 4 of the 41 cases to the IRS via Forms 1099-MISC. Finally, while
reviewing the 150 hearing cases, we also identified some characteristics related to
claimant representation. For example, dismissals had the lowest rate of representation
among all dispositions. In addition, about 58 percent of claimants had appointed
representatives before SSA processed the claims at the hearings level.

REVIEW OF SAMPLE CASES

We reviewed a sample of 150 closed hearing cases from FY 2011—50 allowances,
50 denials, and 50 dismissals (see Table 1)—and found that adjudicators and staff were
generally processing these cases consistent with established controls. SSA directly
paid about $161,813 to the claimant representatives associated with the 50 allowances
in our sample, with the payments ranging from $818 to $6,917. 4 In Table 2, we outline
the various steps we performed on each case to ensure all the necessary conditions
were met before payments to the related claimant representatives were made, if
appropriate. 5

               Table 1: Types of Dispositions and Related Counts in FY 2011
                  Hearing Disposition                Total              OIG Sample
                         Type                      Population              Size
                      Allowances                    446,367                 50
                          Denials                      236,181               50
                        Dismissals                     111,015               50




4
 SSA withheld about $3,462 in user fee assessments to cover its administrative costs, charging between
$54.98 and $166 per case. We discuss these user fees later in the report. We plan to conduct a more
detailed review of user fee assessments in a future audit.
5
    See Appendix E for the sample tests and results.
Page 4 - The Commissioner


                 Table 2: Key Controls Reviewed Related to the Approval,
                           Payment, and Reporting Processes
                                               Tests
    Test 1:   Appointment Form was Properly Prepared and Signed by Claimant and Claimant
              Representative
    Test 2:   Fee Agreement or Fee Petition was Properly Prepared
    Test 3:   Claimant Representative was Eligible for Direct Payment
    Test 4:   Appointed Claimant Representative Attended the Hearing
    Test 5:   Fee Agreement or Fee Petition was Properly Approved by Decisionmaker
    Test 6:   Approved Fees were the Lesser of 25 percent of Past-Due Amount or $6,000 Per
              Fee Agreement or the Amount Per the Fee Petition
    Test 7:   SSA Properly Withheld Assessment on Direct Payment
    Test 8:   SSA Issued 1099-MISC Tax Form to Direct Pay Claimant Representative Recording
              the Payment Amount

Approval and Payment of Fees

We found 1 case among the 50 allowance cases where SSA staff issued payments
totaling $1,818 to the claimant representative even though the decisionmaker on the
case, a senior attorney adjudicator (SAA), 6 had not approved the fee agreement.
According to SSA policy, the SAA should have approved the fee agreement before any
fee payment to the claimant representative, whether paid by SSA or the claimant. 7 SSA
policy also states, “Unless the claimant or representative submits a fee agreement
before the date SSA makes the first favorable decision . . . SSA assumes the
representative will either file a fee petition or waive a fee.”8

We found that field office personnel uploaded the claimant representative’s appointment
form and fee agreement to SSA’s systems after the SAA allowed the case. While the
SAA decided to allow the case on April 14, 2011, the appointment and fee agreement
were uploaded on April 18, 2011. In addition, the signature page was missing from the
fee agreement, and neither the appointment form nor the fee agreement had a date
associated with the signatures. 9 Since this case was an OTR decision, the SAA did not

6
  Both administrative law judges (ALJ) and SAAs can decide cases. However, SAAs can only issue on-
the-record (OTR) allowances.
7
 SSA, POMS, GN 03940.010 E – Receipt of the Fee Agreement in the Field Office and Processing
Center (effective date September 30, 2011). POMS states that when the SSA staff receives a fee
agreement after SSA had made a favorable decision that the staff needs to “. . . determine who made the
decision on the claim; and refer the fee agreement to the decision maker for a determination . . . .”
8
    SSA, POMS, GN 03940.001 A – Fee Agreement Process – Overview (effective date February 7, 2011).
9
  We reviewed additional fee agreements related to this claimant representative and found that he was
using the same two-page agreement in each case, with the second page containing the necessary
signatures and dates. Since the document in the electronic disability folder contained only the first page,
it is possible SSA failed to scan and upload the second page.
Page 5 - The Commissioner


conduct a hearing with the claimant or claimant representative. 10 At the time of our
review, CPMS did not reflect any information pertaining to the claimant representative
and instead showed the claimant as unrepresented. We referred this case to ODAR for
further review so it could determine whether additional documentation and approvals
were needed for the payment to the claimant representative. Agency staff indicated that
the SAA handled the situation correctly since there was no fee agreement in the record
when the favorable decision was issued. SSA also agreed the claimant representative
payment was made in error since no fee agreement had been approved for this case.

User Fee Assessments

We found two instances involving fee agreements where SSA assessed the claimant
representatives excessive user fees. Per Agency policy, the assessment on each case
was limited to the lesser of 6.3 percent of the claimant representative’s payment or
$83. 11 In cases involving fee agreements, the assessments are the same regardless of
the number of claimant representatives because the fees resulting from the approved
fee agreements are split into equal shares. 12 In the first case in question, SSA
assessed $166 in user fees on a $5,834 payment split between two attorneys, with each
attorney receiving $2,917 after subtracting an $83 user fee from each payment. In the
second case, SSA assessed $104 in user fees instead of $83. We were informed by
SSA staff that the $166 user fee most likely related to a system coding error where the
claimant appeared to have only one claimant representative. The $104 user fee, paid
over a 4-month period, was associated with concurrent benefits involving three
payments to a single claimant representative from two programs.

Tax Reporting

We found that SSA did not inform the IRS of direct payments totaling $17,980 13 for 4 of
the 41 cases (about 10 percent) via the 1099-MISC process. For instance, we found
one attorney who received a payment of $5,917 in February 2011, but the payment
amount was not included on the Form 1099-MISC. Staff in the Office of Retirement and
Survivors Insurance Systems (ORSIS) explained that the Agency did not issue Forms


10
   Our review of the 50 allowances determined that 39 cases (78 percent) involved the claimant or
claimant representative, if represented, attending a hearing before an ALJ, while the remaining 11 cases
(22 percent) were OTR decisions by an ALJ or SAA.
11
  SSA, POMS, GN 03920.019 A – Assessment on Representatives Who Receive Direct Payment
(effective date January 26, 2012). The user fee assessment is capped at a flat-rate dollar amount or
6.3 percent of the fee payment, whichever is lower. The flat-rate dollar amount was $83 effective
December 1, 2008 and increased to $86 effective December 1, 2011.
12
  For fee petitions, the user fee is calculated based on the pro rata share of each representative’s
payment. See SSA POMS, GN 03920.019.E – Assessment on Representatives Who Receive Direct
Payment (effective date January 26, 2012).
13
  This $17,980 represents about 11 percent of the $161,813 paid to the 41 direct-pay claimant
representative cases in our sample.
Page 6 - The Commissioner


1099-MISC in FY 2011 to report approximately $184 million of the $1.7 billion 14 in fee
payments, or about 11 percent of total payments to claimant representatives. SSA was
unable to provide documentation to support that the four payments in question were
included in the 1099-MISC process. According to ORSIS staff, Forms 1099-MISC were
not issued to claimant representatives for a number of reasons, including (1) payments
did not contain the representative’s Social Security number, which SSA did not require
for cases represented before January 1, 2007; 15 (2) the claimant representative had a
foreign address; and (3) SSA reissued the payment. 16

CHARACTERISTICS AMONG SAMPLE CASES

We reviewed the 150 sample cases to identify trends related to (1) rate of
representation, (2) fee requests, (3) direct payment requests, and (4) level of claimant
representative appointment.

Represented Claimants

We found that 109 of the 150 (73 percent) claimants in our sample appointed a
representative, with allowed cases having a higher rate of representation than denied or
dismissed cases 17 (see Figure 2). Moreover, attorneys (82 percent) rather than non-
attorneys (18 percent) performed the majority of the representations.




14
  In FY 2011, SSA paid $1.7 billion in fee payments to claimant representatives providing services at all
levels of the disability process. This amount is net of the administrative user fees withheld from the fee
payments, which totaled about $37 million in FY 2011.
15
  SSA, POMS, GN 03920.017 B. 3 – Payment of Representative’s Fee (effective date July 25, 2012).
POMS states effective January 1, 2007, a representative must be registered on the Agency’s Appointed
Representative Database to receive direct payment of authorized fees.
16
     We plan to conduct a separate audit on the 1099-MISC reporting process for claimant representatives.
17
     See Appendix F for characteristics of the denial and dismissal sample cases we noted in our review.
Page 7 - The Commissioner


                      Figure 2: Representation Among 150 Sample Cases
                                                   (FY 2011)


                50

                40          41
                                                   33
                30
                                                                                          25
                                                                              23
                20

                10                                              11
                                  4     5                   6                       2
                 0
                            Favorable             Unfavorable                 Dismissal

                                  Attorney     Non-Attorney          No Representative

Fee Requests

While 99 (91 percent) of the 109 cases with claimant representatives in our sample
requested fees using fee agreements, 6 claimant representatives waived fees for their
services, and 2 claimant representatives submitted fee petitions (see Table 3). 18

                      Table 3: Requested Fees Among 150 Sample Cases
                                                   (FY 2011)
    Hearing                                                             Submitted
                          Claimants                Waived                                  Submitted
 Disposition                                                               Fee
                         Represented                Fees                                  Fee Petitions
     Type                                                              Agreements
 Allowances                    45                       2                  42                  1
 Denials1                      39                       3                  33                  1
 Dismissals                    25                       1                  24                  0
 Total                        109                       6                  99                  2
Note 1: For two sample unfavorable decision cases, the claimant representatives had not submitted a
fee agreement or fee petition at the time of our review. SSA, POMS, GN 03920.001.C.3 – SSAs Fee
Authorization Processes (effective date August 31, 2009), states that unless a representative files a fee
agreement before the date SSA makes the first favorable determination or decision, the Agency
presumes that he/she will either file a fee petition or waive a fee. In addition, ODAR staff indicated they
did not pursue the fee agreements because fee agreements cannot be approved on denials and
dismissals. According to ODAR management, ODAR staff is not required to follow up with a claimant
representative to obtain a fee agreement.




18
     We plan to conduct a more detailed review of fee petitions in a future audit.
Page 8 - The Commissioner


Direct Payment Requests

Of the 101 claimant representatives in our sample who were requesting a fee,
99 (98 percent) requested SSA pay them directly (see Table 4). The two who did not
request direct payment were non-attorneys who were not eligible for direct payment. 19

            Table 4: Request for Direct Payment Among 150 Sample Cases
                                                (FY 2011)
                                                                        Claimant
                                              Claimant
                     Hearing                                         Representatives
                                           Representatives
                 Disposition Type                                   Requesting Direct
                                           Requesting Fees
                                                                        Payment
                Allowances                          43                        41
                Denials                             34                        34
                Dismissals                          24                        24
                Total                              101                        99

Level of Claimant Representative Appointment

Of the represented claimants in our sample, we found that 63 (58 percent) of the
109 represented claimants had appointed representatives before their claim was
processed at the hearings level. As shown in Table 5, in the majority of the allowed and
dismissed cases, the claimants appointed representatives at the initial or
reconsideration levels of the disability process. Among dismissals, 80 percent of the
representatives were appointed before the hearings level, versus 58 percent of
allowances and 44 percent of denials.




19
   On February 27, 2010, the Social Security Disability Applicants’ Access to Professional Representation
Act of 2010 amended sec. 206 of the Act to permanently extend the fee withholding provisions to
attorneys for Title XVI and those non-attorneys who qualify. See Pub. L. No. 111-142, 124 Stat. 38
(2010), as codified at 42 U.S.C. 406(e). These provisions had been temporarily established by sections
302 and 303 of the Social Security Protection Act of 2004, Pub. L. No. 108-203, 118 Stat. 493, 519-521
(2004). To be eligible for direct payment of fees, a non-attorney representative must fulfill the following
statutory requirements: (1) possess a bachelor’s degree or at least 4 years of relevant professional
experience and either a high school diploma or General Education Development certificate, (2) pass a
written examination that tests knowledge of the relevant provisions of the Act and recent developments in
Agency and court decisions affecting Titles II and XVI, (3) secure professional liability insurance or
equivalent insurance, (4) pass a background check; and (5) demonstrate completion of relevant
continuing education courses. The Act also allows SSA to assess a reasonable fee to defray
administrative costs. Non-attorney applicants must pay the fee to complete their application package
(Section 303(b) of the Social Security Protection Act of 2004, 118 Stat. 521, see also 76 FR 45184,
45185, July 28, 2011; and, 20 C.F.R. §§ 404.1717(a) and 416.1517(a)).
Page 9 - The Commissioner


               Table 5: Claimant Representative Level of Appointment
                             Among 150 Sample Cases
                                            (FY 2011)
           Level of          Allowed                             Dismissed
                                            Denied Cases                             Total
       Appointment            Cases                                Cases
    Initial                            10                 7               10                  27
    Reconsideration                    16                10               10                  36
    Hearing                            18                22                5                  45
    Unknown1                            1                 0                0                   1
    Total                              45                39               25                 109
   Note 1: Although CPMS reflected a claimant representative for one of the sample allowance cases,
   we could not locate a Form SSA-1696-U4 to determine at what level the claimant appointed the
   representative.

CONCLUSION AND RECOMMENDATIONS
Our review of a random sample of 150 FY 2011 hearing dispositions disclosed that
controls surrounding claimant representative payments at the hearing level generally
resulted in the proper authorization and payment of fees to the claimant representatives,
though we found one fee approval issue as well as user fee and the tax reporting
issues. We found one instance where SSA paid a claimant representative without the
proper fee authorization. In addition, we found two instances where SSA assessed the
claimant representatives excessive user fees. Finally, we determined SSA did not
report four payments made to claimant representatives to the IRS. We shared the
specifics of all the sample case problems with Agency staff to assist in the resolution of
the issues.

To improve controls over the claimant representative approval, payment, and reporting
processes, we recommend SSA:

1. Review the two excessive claimant representative user fees from our sample cases
   and take the necessary actions to resolve these errors as well as improve the
   accuracy of future assessments.

2. Review the four claimant representative direct payments from our sample cases that
   SSA did not report to the IRS to improve future 1099-MISC tax reporting.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix G for the Agency’s comments.
Page 10 - The Commissioner


OTHER MATTERS
During our review, we found management information issues that were outside the
scope of our review or selected sample items that we thought warranted SSA
management’s attention.

While SSA maintains data on the volume and amount of direct payments to appointed
claimant representatives, the Agency does not maintain comprehensive management
information on claimant representative appointments and fee approvals at all levels –
initial, reconsideration, and hearing and appeals.

The Appointed Representative Database houses identifiers on all claimant
representatives who requested direct payment from SSA 20 to assist the Agency with the
Form 1099-MISC process, though this database does not maintain information specific
to claimant representatives who do not receive direct payment. SSA maintains this
claimant-specific data and related claimant representative data in approximately
19 separate systems. According to Agency staff, SSA initiated a data migration project
to place all of this information into one system, but the project was on hold at the time of
our review. Without a comprehensive claimant representative database, the Agency is
limited in its ability to produce data on the number of represented claimants, as well as
the related fee agreements and fee petitions SSA approved or denied for claims
adjudicated at any level. 21

We also found issues with ODAR’s ability to track fee petitions at the hearings level.
ODAR staff stated limitations in CPMS prevented staff from making petition-related
corrections after closing cases. At the time of our review, ODAR was developing a
separate Fee Action Tracking System database to track fee petitions over $10,000. 22
While this change will address the high value fee petitions processed at the regional
level, it will not address fee petitions processed at the hearing office level. 23




                                                    Patrick P. O’Carroll, Jr.



20
  SSA, POMS, GN 03910.042 – Forms 1099-MISC and Employer Registration (effective date
July 13, 2012).
21
  We plan to initiate a separate review of representation of claimants at the initial and reconsiderations
levels, which will provide us with a fuller understanding of available data.
22
  SSA, POMS, GN 03920.001 B.1 – SSA’s Fee Authorization Processes (effective date August 31,
2009). In a fee petition, SSA approves a “reasonable” fee (under 206(a)(1) of the Act) for the specific
services provided. In determining a reasonable fee, SSA considers criteria the regulations prescribe.
23
     We plan to conduct a separate audit of the fee petition process.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Form SSA-1694-U4 Appointment of Representative
APPENDIX C – Flowchart and Description of the Fee Approval, Payment, and
             Reporting Processes
APPENDIX D – Scope and Methodology
APPENDIX E – Sample Testing Methodology and Results
APPENDIX F – Characteristics of Fiscal Year 2011 Denial and Dismissal Sample Cases
APPENDIX G – Agency Comments
APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A
Acronyms
Act             Social Security Act
ALJ             Administrative Law Judge
CFRMS           Claims File Records Management
CPMS            Case Processing and Management System
FY              Fiscal Year
HALLEX          Hearings, Appeals and Litigation Law Manual
IRS             Internal Revenue Service
ODAR            Office of Disability Adjudication and Review
OIG             Office of the Inspector General
ORSIS           Office of Retirement and Survivors Insurance Systems
OTR             On-the-Record
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SAA             Senior Attorney Adjudicator
SPS             Single Payment System
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code


Forms
HA-501-U5       Request for Hearing by Administrative Law Judge
IRS 1099-MISC   Miscellaneous Income
SSA-1560-U4     Petition to Obtain Approval of a Fee for Representing a Claimant
                Before the Social Security Administration
SSA-1694        Request for Business Entity Taxpayer Identification
SSA-1695-F3     Identifying Information for Possible Direct Payment of Authorized
                Fees
SSA-1696-U4     Appointment of Representative
SSA-1699        Registration for Appointed Representative Services and Direct
                Payment
                                  Appendix B

Form SSA-1696-U4 Appointment of
Representative
                                                     Appendix C

Flowchart and Description of the Fee Approval, Payment, and
Reporting Processes




                               C-1
The following documents are the principal forms SSA, claimants, and claimant representatives use to provide information related to fee requests
and payments.

• Form SSA-1694, Request for Business Entity Taxpayer Identification: Form used to provide SSA information about a claimant representative’s
  employer.

• Form SSA-1695-F3, Identifying Information for Possible Direct Payment of Authorized Fees: A claimant representative must submit this form in
  connection with each claimant he/she represents to request direct payment of fees.

• Form SSA-1696-U4, Appointment of Representative: Form used to appoint a representative. The claimant must sign the Form, and the
  claimant representative should indicate whether he/she is requesting direct payment or waiving fees.

• Form SSA-1699, Registration for Appointed Representative Services and Direct Payment: Form used to register a claimant representative
  seeking fees via direct payment.

• Form SSA-1560-U4, Petition to Obtain Approval of a Fee for Representing a Claimant Before the Social Security Administration: Form used
  when a claimant representative petitions for a fee after his/her services were completed.

• Fee agreement: A contract between the claimant and claimant representative.

• Internal Revenue Service (IRS) Form 1099-MISC, Miscellaneous Income: Tax form SSA sends to a claimant representative who received
  direct fee payments of $600 or more in a calendar year. If a representative’s employer is registered with SSA, a copy of the 1099-MISC will
  also go to the claimant representative’s employer, as appropriate.

If a claimant is denied benefits at the initial or reconsideration levels, he/she can file a Form HA-501-U5, Request for Hearing by Administrative
Law Judge, to appear before an administrative law judge (ALJ). If the claimant is represented, Office of Disability Adjudication and Review
(ODAR) staff will review the Form SSA-1696-U4 and the fee agreement, if one was submitted, and note this in the Case Processing and
Management System (CPMS). If the claimant appoints a different representative before the ALJ renders a decision, ODAR staff must review the
Form SSA-1696-U4 and fee agreement submitted by the new representative, update CPMS, and ensure the former representative is closed out, if
necessary.

If the ALJ issues an unfavorable decision, there is no further processing by ODAR staff of the representative fee agreement unless the claim is
appealed. If the ALJ issues a favorable decision, the ALJ reviews the fee agreement in accordance with policy and either approves or
disapproves the fee agreement. To be approved, the fee specified in the agreement cannot exceed the lesser of 25 percent of the total amount of
                            1
past-due benefits or $6,000. ODAR staff generally sends a notice to the claimant and claimant representative along with the favorable decision.
If no agreement was submitted, there will be no order regarding a fee agreement attached to the decision. If there is no fee agreement or a fee
agreement is disapproved, the representative would need to submit a fee petition to seek authorization for a fee. As part of the fee petition, the

1
 For fee agreements submitted on or after June 22, 2009, the maximum fee amount is $6,000. For fee agreements submitted on February 1,
2002 through June 21, 2009, the maximum fee amount was $5,300.


                                                                       C-2
representative must submit an itemization of the hours spent working on the case. For hearing level cases, the decisionmaker authorizes fees
under a fee petition up to and including $10,000. If the decisionmaker recommends a fee under a fee petition that exceeds $10,000, he/she refers
                                                         2                            3
the fee to the Regional Chief Administrative Law Judge to authorize a reasonable fee.

For fee agreements, ODAR staff annotate in SSA systems whether the fee was approved, the ALJ who approved it, and the date it was approved.
An order is then sent to the claimant and representative with the favorable decision. If the claimant representative requested direct pay of fees,
the processing center and/or field office are notified of the fee agreement approval and process the payment to the claimant representative. As
part of this process, SSA will assess a user fee on each case of the lesser of 6.3 percent of the claimant representative’s payment or $83. At the
conclusion of the tax year, if the claimant representative’s payment(s) exceed $600, SSA will send an IRS Form 1099-MISC to the claimant
representative and his/her firm, as appropriate, notifying the various parties of their tax liability.




2
    SSA, Hearings, Appeals, and Litigation Law Manual, I-1-2-6.A.2 – Delegation of Authority to Authorize Fees (effective date February 25, 2005).
3
  SSA, POMS, GN 03920.001 B.1 – SSAs Fee Authorization Processes (effective date August 31, 2009). In a fee petition, SSA approves a
“reasonable” fee (under 206(a)(1) of the Act) for the specific services provided. In determining a reasonable fee, SSA considers criteria the
regulations prescribe.


                                                                         C-3
                                                                      Appendix D

Scope and Methodology
To address our objectives, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures, including applicable
    sections of the Hearings, Appeals and Litigation Law Manual.

•   Interviewed staff and management in the Offices of Disability Adjudication and
    Review, Public Service and Operations Support, and Retirement and Survivors
    Insurance Systems. In addition, we interviewed staff in the Great Lakes Program
    Service Center.

•   Obtained closed claim information from the Case Processing and Management
    System (CPMS) for Fiscal Year (FY) 2011 and randomly selected 150 sample
    cases—50 allowances, 50 denials, and 50 dismissals.

•   For each sample item, we reviewed electronic disability folder information, hearing
    digital audio recordings, payment systems, 1099-MISC tax information, and other
    Agency records to meet our audit objective. We did not recalculate the past-due
    benefit amount as part of this review. We outline our sample test methodology and
    results in Appendix E.

•   We identified trends associated with the 150 sample items related to representation
    and payments that would provide SSA managers with additional context.

We determined the computer-processed data from the CPMS were sufficiently reliable
for our intended use. We conducted tests to determine the completeness and accuracy
of the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives. We performed audit work in Chicago, Illinois, from March to July 2012.
The principle entities audited were the Offices of the Deputy Commissioner for Disability
Adjudication and Review, and Operations. We conducted our work in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                                                                                       Appendix E

Sample Testing Methodology and Results
                            Table E-1: Sample Review Results: Allowances (50 Sample Items)
                                           Condition to be Tested                                                    Yes            No
                                       1
Claimant Appointed a Representative                                                                                  45              5
Claimant and Representative Submitted a Fee Agreement or a Fee Petition2                                             43              2
Claimant Representatives Requested Direct Payment of Fee3                                                            41              2
Hearing Held Between Represented Claimant and an Administrative Law Judge (ALJ)4                                     35             15
Note 1: We identified all cases with a Form SSA-1696-U4 Appointment of Representative or when the Office of Disability Adjudication and
Review’s (ODAR) Case Processing and Management System (CPMS) reflected a claimant representative since we were unable to obtain the
paper file for one case to view the SSA-1696-U4.
Note 2: We identified all cases with a fee agreement or Form SSA-1560-U4, Petition to Obtain Approval of a Fee for Representing a Claimant
Before the Social Security Administration, on file. On two of the cases, claimant representatives waived their fees.
Note 3: Among the 43 cases with claimant representatives requesting a fee, 41 cases had claimant representatives who requested direct
payment and 2 cases had claimant representatives who were not eligible for direct payment.
Note 4: Social Security Administration (SSA) rendered on-the-record (OTR) decisions in 10 represented cases, which did not require
hearings. Five cases were unrepresented.
                                                                                                                   Items       Problems
                                              Test Performed
                                                                                                                   Tested      Identified
Test 1: SSA-1696-U4 was Properly Prepared and Signed by Claimant and Claimant Representative                         44            1
Test 2: Fee Agreement or Fee Petition was Properly Prepared                                                          42            1
Test 3: Claimant Representative was Eligible for Direct Payment                                                      41            0
Test 4: Appointed Claimant Representative Attended the Hearing                                                       35            0
Test 5: Fee Agreement or Fee Petition was Properly Approved by Decisionmaker                                         43            1
Test 6: SSA Issued the Lesser of 25 percent of Past-Due Amount or $6,000 on Approved Fee
                                                                                                                     41             0
Agreement or Paid the Appropriate Amount Per the Fee Petition
Test 7: SSA Properly Withheld Assessment on Direct Payment                                                           41             2
Test 8: SSA Issued 1099-MISC to Direct Pay Claimant Representative Recording the Payment Amount                      41             4




                                                                    E-1
Additional Explanation of Tests:

Test 1: We were able to obtain only 44 of the 45 appointment forms since SSA was not able to locate the paper folder containing the SSA-
1696-U4. In one case, the claimant and claimant representative’s signatures on the SSA-1696-U4 were not dated. Since this form was also
uploaded after the decision on the case (see Test 5), this date would have assisted in determining the order of events.

Test 2: We were able to obtain only 42 of the 43 fee-related documents SSA was not able to locate the paper folder. In one case, the
claimant and claimant representative’s signatures and related dates were not present on the fee agreement. Since this form was also
uploaded after the decision on the case (see Test 5), this date would have assisted in determining the order of events.

Test 3: We reviewed SSA’s List of Sanctioned Representatives (dated May 21, 2012) and determined none was listed as a sanctioned
representative. We also located public data and determined that the attorney representatives associated with our cases were licensed to
practice law.

Test 4: We checked the electronic disability folder and listened to all available hearing audio recordings to identify representatives who
attended the hearing. We found ODAR held hearings for 35 of 45 represented cases, and we verified that the representative named during
the hearing was listed on Form SSA-1696-U4, the fee agreement or fee petition, and the decision letter.

Test 5: We reviewed decision notices in electronic or paper files, or the Claims File Records Management System (CFRMS), to verify that
administrative law judges (ALJ) or Senior Attorney Adjudicators (SAA) approved the fee agreement or fee petition. We found one case
where the SAA did not approve the fee agreement because it was not part of the electronic disability folder when the decision was rendered.

Test 6: We reviewed the Single Payment System (SPS) to identify fee payment amounts for all cases. We found SSA properly paid
representatives related to 40 approved fee agreements and the 1 approved fee petition.

Test 7: We reviewed SPS to verify that SSA collected the appropriate assessment amount. We found one case that was represented by
two employees of a law firm, and SSA charged each representative $83 for a total of $166. In the second case, SSA assessed $104 in user
fees instead of $83. SSA, POMS, GN 03920.019.E—Assessment on Representatives Who Receive Direct Payment states representatives
will share in paying the assessment in proportion of the fee amount SSA pays to each representative.

Test 8: We reviewed a Form 1099-MISC data file to determine whether SSA issued the tax form to representatives recording the payment
amount in our sample items. We found four instances where some or the entire amount paid by SSA was not reported to the IRS on a 1099-
MISC, for a total of $17,980.




                                                                     E-2
                               Table E-2: Sample Review Results: Denials (50 Sample Items)
                                            Condition to be Tested                                                     Yes           No
                                        1
Claimant Appointed a Representative                                                                                    39             11
Claimant and Representative Submitted a Fee Agreement or a Fee Petition2                                               36              3
Claimant Representative Requested Direct Payment 3                                                                     34             2
Hearing Held Between Represented Claimant and an ALJ                                                                   39              0
Note 1: We identified all cases with a Form SSA-1696-U4.
Note 2: We identified all cases with a fee agreement or Form SSA-1560-U4 on file. Three claimant representatives waived their fees.
Note 3: Among the 36 claimant representatives requesting a fee, 34 requested a direct payment and 2 were eligible for direct payment but did
not request such payment.
                                                                                                                     Items        Problems
                                               Test Performed
                                                                                                                     Tested       Identified
Test 1:   SSA-1696-U4 was Properly Prepared and Signed by Claimant and Claimant Representative                         39             0
Test 2:   Fee Agreement or Fee Petition was Properly Prepared                                                          36             2
Test 3:   Claimant Representative was Eligible for Direct Payment                                                      34             0
Test 4:   Appointed Claimant Representative Attended the Hearing                                                       39             1
Test 5:   Fee Agreement or Fee Petition was Not Approved by Decision Maker on Denials                                  39             0
Test 6:   SSA Did Not Issue a Fee to the Claimant Representative                                                       39             0
Additional Explanation of Tests:

Test 1: We did not find any problems among the items we tested.

Test 2: We found fee agreements were missing for two denied cases. ODAR staff indicated they did not pursue the fee agreements because
fee agreements cannot be approved on denials and dismissals. According to ODAR management, ODAR staff is not required to follow up with
a claimant representative to obtain a fee agreement. In addition, had the cases been allowed, the claimant representatives would have had the
opportunity to submit fee petitions.

Test 3: We reviewed SSA’s List of Sanctioned Representatives (dated May 21, 2012) and determined none was listed as a sanctioned
representative. We also located public data and determined 34 cases had attorney representatives who were licensed to practice law. The
remaining two cases had non-attorney representatives who were listed on SSA’s Eligible Non-Attorney Representatives List, which authorized
them for direct payment. However, the two non-attorney representatives did not request direct payment.

Test 4: We checked the electronic disability folder and listened to all available hearing audio recordings to identify representatives who
attended the hearing. We found the SSA held hearings for 39 of 50 cases, and we verified in all except one hearing that the representative
named during the hearing was listed on Form SSA-1696-U4, the fee agreement or fee petition, and the decision letter. According to ODAR,
one digital recording was lost and therefore unavailable.

                                                                     E-3
Test 5: We reviewed decision notices in electronic or paper files, or CFRMS, to verify that ALJs denied the claim. Hearings, Appeals, and
Litigation Law Manual (HALLEX) I-1-2-21.C.1—Fee Agreement-Hearing Office Procedures states the ALJ will make a determination on a fee
agreement only when the ALJ decides the claim wholly or partially in the claimant’s favor.

Test 6: We reviewed SPS to identify fee payment amounts for all cases. We found SSA did not issue payments on the denial cases.

                             Table E-3: Sample Review Results: Dismissals (50 Sample Items)
                                             Condition to be Tested                                                      Yes            No
                                         1
Claimant Appointed a Representative                                                                                      25             25
Claimant and Representative Submitted a Fee Agreement or a Fee Petition2                                                 24              1
Claimant Representatives Requested Direct Payment 3                                                                      24              1
Note 1: We identified all cases with a Form SSA-1696-U4.
Note 2: We identified all cases with a fee agreement or Form SSA-1560-U4 on file. One claimant representative waived the fee.
Note 3: We found that all 24 claimant representatives requesting a fee also requested direct payment.
                                                                                                                       Items        Problems
                                                Test Performed
                                                                                                                       Tested       Identified
Test 1:   SSA-1696-U4 was Properly Prepared and Signed by Claimant and Claimant Representative                           25             0
Test 2:   Fee Agreement or Fee Petition was Properly Prepared                                                            24             0
Test 3:   Claimant Representative was Eligible for Direct Payment                                                        24             0
Test 4:   Fee Agreement or Fee Petition was Not Approved by Decision Maker on Denials                                    24             0
Test 5:   SSA Did Not Issue a Fee to the Claimant Representative                                                         24             0
Additional Explanation of Tests:

Tests 1 and 2: We did not find any problems among the items we tested.

Test 3: We reviewed SSA’s List of Sanctioned Representatives (dated May 21, 2012) and determined not one was listed as sanctioned
representatives. We also located public data and determined all cases had attorney representatives who were licensed to practice law. In
addition, we determined the non-attorney representatives were listed on SSA’s Eligible Non-Attorney Representatives List.

Test 4: We reviewed decision notices in electronic or paper files, or CFRMS, to verify that ALJs dismissed the claim. Per HALLEX I-1-2-
21.C.1, the ALJ will make a determination on a fee agreement only when the ALJ decides the claim wholly or partially in the claimant’s favor.

Test 5: We reviewed SPS to identify fee payment amounts for all cases. We found SSA did not issue payments on the dismissed cases.




                                                                      E-4
                                                                                        Appendix F

Characteristics of Fiscal Year 2011 Denial and
Dismissal Sample Cases
Based on our review of 100 of the 150 randomly selected hearing dispositions
(50 denials and 50 dismissals) from Fiscal Year 2011, we found that about 68 percent of
claimants with a denied case subsequently filed an appeal with the Appeals Council,
and another 12 percent requested a new hearing (see Figure F-1). However, only
10 percent of claimants with dismissed cases subsequently filed an appeal, and
4 percent requested a new hearing. 1 Of the appealed denials, 12 percent was
remanded back to an administrative law judge (ALJ) for further action. 2 In the case of
the dismissals, one case was remanded back to the ALJ, and the ALJ issued a
favorable decision.

                           Figure F-1: Subsequent Hearings and Appeals
                            Among Sample Denial and Dismissal Cases
                                                  (FY 2011)



                 Requested New Hearing


               Filed with Appeals Council


                           Took No Action

                                            0%    20%         40%      60%      80%        100%

                                                        Filed with Appeals
                                 Took No Action                              Requested New Hearing
                                                              Council
                 Denials              20%                      68%                    12%
                 Dismissals           86%                     10%                     4%

We also reviewed the reasons for dismissals in our sample and found claimants
abandoned 54 percent of claims, while 32 percent withdrew the request for a hearing
(see Figure F-2). We could not locate documentation that reflected if the claimant
provided a reason why they abandoned the case or withdrew the hearing request.




1
    As of June 2012, the subsequent hearings related to the denial and dismissal cases were still pending.
2
    As of June 2012, the remaining appealed cases were still under review by Appeals Council.


                                                        F-1
                 Figure F-2: Reasons for Dismissals Among Sample Cases
                                         (FY 2011)

                                                                           Abandonment
                       Hearing
                                                                               54%
                      Withdrawal
                         32%




                     Untimely Filed
                          4%
                                   Other
                                    6% Death
                                         4%

Based on a prior OIG recommendation, 3 SSA’s Office of Quality Performance
conducted a study and noted disagreement with 30 percent of the dismissals reviewed,
with the greatest disagreement related to withdrawal dismissals. The report provided
suggestions for improving dismissal quality. 4 Agency improvements in dismissal quality
may assist unrepresented claimants who are more likely to have their cases dismissed
than represented claimants.




3
 SSA OIG, Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-20171),
December 2010, page 10.
4
    SSA, Office of Quality Performance, Dismissal Quality Review Report, December 2011, page 3.


                                                   F-2
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      November 2, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Controls over Payments Made to Claimant
           Representatives at the Hearings Level” (A-05-12-11239)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"CONTROLS OVER PAYMENTS MADE TO CLAIMANT REPRESENTATIVES AT
THE HEARINGS LEVEL" (A-05-12-11239)


Recommendation 1

Review the two excessive claimant representative user fees from our sample cases and take the
necessary actions to resolve these errors as well as improve the accuracy of future assessments.

Response

We agree.

Recommendation 2

Review the four claimant representative direct payments from our sample cases that SSA did not
report to the IRS to improve future 1099-MISC tax reporting.

Response

We agree.




                                               G-2
                                                                             Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Deborah Kinsey, Audit Manager, Chicago Audit Office

Acknowledgments

In addition to those named above:

   Elizabeth Ochoa, Auditor-in-Charge

   Sherri Holmes, Auditor

   Linda Smid, Auditor

For additional copies of this report, please visit our web site at http://oig.ssa.gov/ or contact
the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518. Refer to
Common Identification Number A-05-12-11239.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
